IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
DUWAYNE JONES,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Duwayne Jones, through undersigned counsel and pursuant to SUP.
CT. R. 29.2 and 28 U.S.C. ' 1746, declares that the Petition for Writ of Certiorari
filed in the above-styled matter was sent in an envelope via third party commercial
carrier for delivery within three days, addressed to the Clerk of the Supreme Court
of the United States, on the 17th day of November, 2020, which is prior to the time
the petition for writ of certiorari is due on December 3, 2020.
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
West Palm Beach, Florida
November 17, 2020

By:

s/ Peter Birch
Peter Birch
Assistant Federal Public Defender
450 S. Australian Ave., Suite 500
West Palm Beach, FL 33401

